04/22/04            THU 14:52 FAX 423 241 3897                   OIG                             -*•-   HQ                   l015


   ol: Fi 13 5.8
    (8-09)
 £1•G (in'mi^))


  United States Government                                                         Department of Energy

  Memorandum
              DATE:       April. 22,   2004

        REPLY TO

         ATTN OF:         T -36   (A04RL018)                                 Audit Report No.: OAS-L-04-15

        SUBJECT:         Audit of Disposition of Excess Facilities at the Hanford Site

                   TO:    Keith A. Klein, Manager, Richland Operations Office


                         INTRODUCTION AND OBJECTIVE

                         The Hanford Site (Hanford) is the largest of the three original defense production sites
                         founded during World War II. Between 1943 and 1963, nine plutonium production
                         reactors were built along the Columbia River and five processing facilities were built on
                         the site's Central Plateau, with about 1,000 support facilities. Currently, Hanford has a total
                         of 1,500 facilities of which an estimated 1,000 are excess to current and future mission
                         needs.

                         In 2002, the Department's Environmental Management (EM) program issued a Top-to-
                         Bottom Review of the EM Program., One of the major findings of the review was that
                         EM's cleanup strategy was not based on comprehensive, coherent, technically supported
                         risk prioritization. The review specified that the approach resulted in costly waste
                         management and disposition strategies that are not proportional to the risk posed to human
                         health and the environment. The review recommended that cleanup work should be
                         prioritized to achieve the greatest risk reduction at an accelerated rate and that all high-risk,
                         highly contaminated facilities should be decontaminated and decommissioned on an
                         expedited basis.

                         Additionally, in 2002, the Office of Inspector General (OIG) evaluated the Department's
                         plans for "Disposition of the Department's Excess Facilities" (DOE/ITG-0550). The audit
                         revealed that the Department's disposition activities were not prioritized to balance mission
                         requirements, reduce risks, and minimize life-cycle costs. The report noted that at Hanford
                         some facilities that posed extremely low risk had been decommissioned while several
                         riskier facilities had not been addressed.

                         In response to the report, the Department developed Departmental Order 430.113, Real
                         PropertyAsset Management. The Order requires management to establish a corporate,
                         holistic, and performance-based approach to real property life-cycle asset management that
                         links real property asset planning, programmling, budgeting, and evaluation to program
                         mission projections and performance outcomes. Also, the Order specifies that a disposition
                         baseline be developed to assess and prepare real property assets for disposition when they
                         are no longer required for current program missions. The disposition plan shall include
04/22/04   THU 14:53 FAX 423 241 3897                OIG                            -*44   HQ                    01016




             cost and schedule information for disposition activities. Disposition activities include
             stabilizing, preparing for reuse, deactivating, decommissioning, decontaminating,
             dismantling, demolishing, and/or disposing of real property assets.

             The objective of this audit was to determine whether an integrated disposition baseline for
             excess facilities at Hanford has been developed.

             CONCLUSIONS AND OBSERVATIONS

             We found that an integrated disposition baseline for excess facilities at Hanford has not
             been developed. In lieu of an integrated disposition plan, the Richland Operations Office
             (Richland) is relying on the Hanford Life-Cycle Plan, which addresses disposition activities
             at Hanford by waste type and area rather than on an individual facility basis. Additionally,
             Richland is in the process of implementing a regional closure optimization strategy
             (optimization strategy) for the site's 200 Area, which contains the vast majority of
             Hanford's excess facilities. While the optimization strategy considers risk, it does not take
             into account the cost to disposition the vast majority of the nearly 1,000 facilities that are
             not needed and take up valuable resources to maintain. Specifically, the optimization study
             does not contain sufficient cost data to compare the one time cost to disposition a facility
             versus continued surveillance and maintenance costs. While disposition activities in the
             site's 100 and 300 Areas are being performed by a different prime contractor, we identified
             a similar lack of sufficient cost data to support the disposition activities in those areas. This
             occurred, in part, because disposition activities at Hanford are managed within individual
             areas rather than prioritized on a site-wide basis. For example, the decision may be made
             to disposition a facility in one area on the site without adequately considering disposition
             priorities in other areas. Additionally, Richland has not established a separate budget for
             disposition activities at the site.

             While Richland agreed that the current approach to dispositioning excess facilities at
             Hanford had some gaps, overall they felt that disposition activities are embedded in current
             plans and provide an effective approach. Richland estimates that about $71 million will be
             spent on surveillance and maintenance of excess facilities at Hanford during FY 2004.
             However, without a comprehensive facility disposition plan and sufficient cost data they
             cannot determine which facilities provide the greatest payback for reduced surveillance and
             maintenance costs. Further, the lack of a single manager or separate budget increases the
             likelihood that disposition activities at the site may not be given a high priority.

             Since no formal reconunendations are being made, a formal response is not required.
             However, to ensure that the most cost-effective approach for dispositioning excess facilities
             at Hanford is implemented, we suggest that you comply with DOE Order 430.1B which
             requires you to prepare an integrated disposition baseline that addresses all excess facilities
             at Hanford. This baseline should contain sufficient cost data to compare the one time cost
             to disposition a facility versus continued surveillance and maintenance of that facility.

             SCOPE AND METHODOLOGY

             The audit was performed between October 20, 2003, and April 6, 2004, at the Hanford Site
             in Richland, Washington. The scope of the audit included a review of the plans and
             activities associated with the disposition of excess facilities at the Hanford Site.


                                                      2
04/22/04   THU 14:53 FAX 423 241 3897                OIG                            -»-*-* HQ                 j017




                                                                                   Plan and the
           To accomplish the audit objective, we analyzed the Hanford Life-Cycle                  to
                                                      Closure; reviewed prior OTG reports relatedwith
           Opltimization Strategy.for CentralPlateauDepartmental    Orders; and held discussions
           the audit's objective; reviewed applicable
           Richland Operations Office and contractor officials.
                                                                     accepted Government auditing
           The audit was conducted in accordance with generally
                                                                  of internal controls and compliance
           standards for performance audits and included tests
           with laws and regulations to the extent necessary to satisfy the audit objective.
                                                                            measures established under the
           Accordingly, we assessed internal controls and performance
                                                                          to the disposition of excess
           Government Performance and Results Act of 1993 related
                                                                                not necessarily have
           facilities at Hanford. Because our review was limited, it would
                                                                       existed at the time of our audit. In
            disclosed all internal control deficiencies that may have
                                                                         data.
            performing this audit, we did not rely on computer-based
                                                                                     Operations Office
            We discussed the audit results with EM Headquarters and Richland
            officials on April 19, 2004.
                                                                   the audit.
            We appreciate the cooperation of your staff throughout




                                                     Philli L. Holbrook, Director
                                                     Environmental Audits Division
                                                     Office of Inspector General

             cc: Assistant Secretary for Environmental Management
                 Team Leader, Audit Liaison Team, ME-1.1
                 Audit Liaison, Richland Operations Office
   04/22/04            THU 14:53 FAX 423 241 3897                  OIG                             -+*   HQ                     I~018

DOE F is25.8
    b-B9)
   (n7410)
 wFO
                                                                                                         Departmcnt of Encrgy
United States Government


memorandum
               rATE:   April 22,     2004
       REPLY     TO:   '0-36 (A04RL018)

        SUBJECT:       Final Report Package for "Audit of Disposition of Excess Facilities at the Ianford Site"

                 to, Linda J. Snider, Director for Planning and Administration (DPA)


                       Attached is the required final report package on the subject audit. The pertinent details are:

                       1. Staff:days:       Programmed      N/A                     Actual        N/A


                       2.Elapsed days:      Programmed       .86         _          Actual        185


                       3. Names of OIG audit staff:
                             Assistant Regional Manager:                     Phillip D. Beckett
                             Team Leader (Audit-Control-Point):              Michael R. Kuklok
                             Auditor-in-Charge:                              Larry Leslie
                             Audit Staff:                                    Robert O'Keefe
                                                                             Luther Hughes

                       4. This report has been discussed with OIG Investigations and Inspections personnel.

                                   Michael Matkowski, Investigations, April 8, 2004
                                   Gcoff Gray, Inspections, April 9, 2004

                        5. Matters to be brought to attention of the IG or AIGA: None




                                                                              Philli.   Ho broo , ir tor
                                                                              Environmental Audits Division
                                                                              Office of Inspector General

                        Attachments:
                        1. Final Report (3)
                        2. Monetary Impact Report
                        3. IGDBMS File Printout
04/22/04       THU 14:54 FAX 423 241 3897                           OIG                                         4-4   HQ                1i019
                         MONETARY IMPACT OF REPORT NO.:                              OAS-L-04-15

   1. Title of Audit:         Audit of Diposition of Excess Facilities at the Hanford
                                                                                      Sit
  2. Division:                Environmental Audit Division               A      Riand                     cRL~)
  3. Project No.:             A04RL018

  4. Type of Audit:

         Financial:
             ..Financial
                  Fin-cia-:                                      Perform ance:                 X
                       Statement                                    rformance: ---
             Financial
             Financial Related                                      Economy and Efficiency                            X
                       Related
        Other (specify type):                                       Progran Results

 5. Please report monetary savings identified in the report using applicable
                                                                             columns. Provide additional
 explanations of audited activities/locations in Section No. 6 - Rcmarlcs.

             FINDING                   COSI                         QUESTIONED COSTS
                                                                                                                    MOT.   POTRNTIAI,
                                                                                                               POSITION
                                                                                                               pTUD;'T
 (A)              S(C)
                  B)                          (D)    --  (E)--------------
                                                         (                       (E)                      -______           IMPACT
                                                                                                ())               (I)
                 'Ilitl          One     Recurring    Questioned        lsup-    iUn1-   .         otal        C-Cocllur     Y=(j)
                                 l'n   e Amount
                                            r
                                         PcrYearw                     purtcd    solved       (R)+(F)+()       N=Nonco        N-No
                                                                                                                             N-No
       N/A                                                                                                    LU=Undec




TOTAl .S-ALL FINDINGS



6. Remarks: N/A

7Contracto None
7. Contractor:  None
8. Contract No.: None
                                                          10, Approvals:
                                                          Division Director/Date:
9. Task Order No.: None                                   Technical Advisor & Date
    04/22/04         THU 14:54 FAX 423 241 3897                                  OIG                                            *4*    HQ                       L021
                                                                             ...--------------------------


                                             Audit          Project              Office     Summary               (APS)
                                                                                                                                                             Page 1
Report run on:                      April 22, 2004 10:25 AM


  Audit#          A04RL018       Ofc:        RLA       Title: D&D ACTIVITIES AT THE HANFORD SITE

                                                                   ****      Milestones:***                                 _____

                                                     Planned     End of Survey       Revised                                               Actual
                                                                            7
                                                                       ---------- ---- -----------
                                                    ------------------------------------                                                  -----------

                                                   20-OCT-03                                          20-OCT-03                       20-OCT-03
   Entrance Conference:.....
                                                   18-DEC-03                                          06-APR-04                       06-APR-04
   Survey: ..................
   Draft Report:............
                     (With Report):.               30-SEP-04                                          23-APR-04                       22-APR-04         (R
   Completed
   ------------        Elapsed Days:                        346                                                   186                  185
                                                                                                                       IElap.   Less Susp:

   Date Suspended:                                                        Date Terminated:
   Date Reactivated:                                                   Date Cancelled:
   DaysSuspended(Cur/To)                 :             (              )Report Number:                 OAS-L-04-15

   RPC Title:                             Report Type:                                                LTR       LETTER REPORT
   DISPOSITION OF EXCESS FACILITIES AT THE HANFORD SITE


                                                     ****      Audit Codes             and Perso•nnel           ****

   Class:    PER             PERFORMANCE
   Program:  ESH            Not Found
   MgtChall: 032            ENVIRONMENTAL CLEANU
                                                                                                AD:   327          BECKETT
   Site:            MSA      MULTI-SITE AUDIT                                                                      LESLIE
                                                                                         AIC:         726
   SecMiss:         ENV      ENVIRONMENTAL QUALIT                                   Team Ldr:         546          KUKLOK
   PresInit: SHC             STRATEGIC MANAGEMENT                                   Tech Adv:         432          GAMAGE

                                                            S***    Task Information ****                   :

           Task NO:
           Task Order Dz:                                                 CO Tech.       Rep:
           Orig Auth Hrs;                                                 Orig Auth Costs:
           Current Auth:                                                  Current Auth Cost:
           Tot Actl        IPR Hr:                                        Tot Actl Cost:


                                                               ****.Time Charges ****
                       Emp/Cont Name                       NumdaysB          .     Lat     Date                                  ______

                          KUKLOK,    M                             8-4             17-APR-04
                          O'KEEFE,       R                        31.9             21-FEB-04
                          HUGHES, L                               71.4             20-MAR-04
                          LESLIE,    L                            83.9             03-APR-04
                          Total:              _195.5
    04/22/04     THU 14:55 FAX 423 241 3897                             0IG                               -*4   HQ               [022
                                           -------              ---------
                                     Audit            Project         Office   Summary            (APS)
                                                                                                                              Page 2
Report run on:                  April 22. 2004 10:25 AM

                                                ***       .Keywords    ****
                        zi-----------

                  DECOMMISSIONING
                  DECONTAMINATION
                  DEPARTMENT
                  DISPOSITION
                  DOE
                  DOE ORDER 430.1B
                  DOE-RICHLAND
                 .EXCESS FACILITIES
                  FACILITY DISPOSITION PLAN
                  HANDFORD LIFE-CYCLE PLAN
                  HANFORD
                  OPTIMIZATION STRATEGY
                  RICHLAND
                  SUVEILLANCE AND MAINTENANCE


    Lo                               ***      Lo'cation Informatibn *:***
     ode       Description                                                     ..             '

    HSF        HANFORD SITE FACILITY -                R

    RLF        FLUOR HANFORD, INC

                                           ****Finding           Information:           Bugd Mt
                                                                                             M*** Dep t                          Dept
                        Title                    .     ....               ou        Y   I1P        o       .P        Amount      Date
    Find#
    04/22/04   THU 14:55 FAX 423 241 3897                    OIG                              --   HQ       Ia023
                                     ------------------------------------------
                                     Audit Project             Office       Summary   (APS)
                                                                                                        Page 3
Report run on:               April 22,      2004 10:25 AM


                                                     Audit History                .

  Audit No;    A04RL018                            History Date:        22-APR-04

  History Text:
  PB/ ENTERED COMPLETED WITH REPORT DATE.




                                -     -     ----
               THU 14:54 FAX 423 241 3897                  OIG                             *-.- HQ                     1Z1020
 04/22/04




                                 AUDIT DATABASE INFORMATON SHEE


Project No.:        A04ROL018
                                                  Facilities at the Hanford Site
1. Title of Audit: Audit of Disposition of Excess
                           OAS-L-04-15; April 22,         2004
2.   ReportNo./Date

3. Management Challenge Area:                         Environmental Cleanup

4. Presidential Mgmt Initiative:                       N/A

 5. Secretary Priority/Initiative:                 Environmental Program

 6. Program Code:         EM-1

 7. Location/Sites:       RL

 8. Finding Summary:
                                                                                  at Hanford has not been developed. In
       We found that an integrated disposition baseline for excess facilities
                                                                                   (Richland) is relying on the Hanford
       lieu of an integrated disposition plan, the Richland Operations Office
                                                                               by waste type and area rather than on an
       Life-Cycle Plan which addresses Disposition activities at Hanford
                                                                              of implementing a regional closure
       individual facility basis. Additionally, Richland is in the process
                                                                                          contains the vast majority of
       optimization strategy (optimization strategy) for the site's 200 Area, which it does not take into account the
                                                                                    risk,
       Hanford's excess facilities. While the optimization strategy considers
                                                         are not needed   and  take  up valuable resources to maintain.
       vast majority of the nearly 1,000 facilities that
                                                                                  data to compare the one time cost to
        For example, the optimization study does not contain sufficient cost
                                                                                   costs. While disposition activities in
        Disposition a facility versus continued surveillance and maintenance
                                                                            prime contractor, we identified a similar
        the site's 100 and 300 Areas are being performed by a different
                                                                                                  occurred, in part,
        lack of sufficient cost data to support the disposition activities in those areas. This
                                                                                                    site to a single
        because Richland has not assigned the responsibility for Disposition activities at the            activities at the
                                                                  a separate   budget   for Disposition
        contractor. Additionally, Richland has not established
        site.
                                                                                              at Hanford had some
       While Richland agreed that the current approach to dispositioning excess facilities
                                                                         in current plans and provide an effective
       gaps, overall they felt that Disposition activities are embedded      on surveillance and maintenance of
       approach. Richland estimates that about $71 million will be spent                     facility disposition plan
       excess facilities at Hanford during FY 2004. However, without a comprehensive payback for reduced
                                                                                 the greatest
       and sufficient cost data they cannot determine which facilities provide
                                                                                     or separate budget increases the
       surveillance and maintenance costs. Further, the lack of a single manager
       likelihood that Disposition activities at the site may not be given a high priority.


     9. Keywords: Excess Facilities                          Hanford
                  Decontamination                            Richland Operations Office
                  Decommissioning                            Hanford Life-Cycle Plan
                  Disposition                                _Optimization Strategy
                  Disposition                                Surveillance and Maintenance
                  DOE                                        Facility Disposition Plan
                  DOE-Richland                               DOE Order 430.1 b
04/22/04 .THU    14:55 FAX 423 241 3897               OIG                               -*-.4 HQ        ]024




                               POTENTIALLY SENSITIVE INFORMATION

         The following is a list of information considered to be potentially sensitive. If the
         information is detailed to such an extent that it would cause or could potentially
         cause damage to U.S. national security, citizens, or property, it cannot be included
         in our public reports. Therefore, when preparing your reports be sure to use this
         checklist to determine whether the report contains potentially sensitive information.

                       CATEGORIES/TYPES OF INFORMATION                                     YES     NO
         Facilities
          SDetailed description and location of facilities to include maps,                        X
              written directions, drawings, blue prints, photographs and the like
         >    Detailed descriptions and location of storage facilities for nuclear or              X
              other hazardous materials
         >  Detailed descriptions and location of personnel or facility support                    X
            systems (e.g. water supply, electrical supply systems,
            communications systems, emergency response
            personnel/equipment)
          > Detailed descriptions and locations of computer systems used to                        X
            process, store, and transmit sensitive information.
          > Environmental Impact Statements that provide the consequences for                      X
            what is being studied.
          > Any detailed information pertaining to other sites that has not been                   X
            reviewed/approved by the other site.

          Materials
          > Form and quantity of hazardous materials, (chemical, nuclear,                           X
            biological)
          > Vulnerabilities of materials to unauthorized access or destruction.                     X
          ~     Consequences of release of hazardous materials                                      X
             SDetailed transportation related information (routes, maps, shipping                   X
               means, containers).

          Security/Safety
          > Detailed plans, procedures, communications, reaction times,                             X
             capabilities that would allow someone to determine vulnerabilities
                of the site.
           > Specific assessments, exercise results, evaluations for a particular                   X
                site
           > Specific personnel data identifying seri/safety personnel                              X
           > Specific equipment and its potential uses                                              X




                                                            1
04/22/04   THU 14:55 FAX 423 241 3897               OIG                              -**-   HQ       1•025




                              POTENTIALLY SENSITIVE INFORMATION


           Assessments
           > Site specific vulnerability assessments                                             X
           > Site specific safety assessments/analysis                                           X
           > Site specific risk analyses                                                         X
           > Specific hazardous assessments (Dispersion models and analyses,                     X
             accident analyses, or site hazards)

           Personnel
           > Specific organization charts or phone lists identifying senior                      X
               management/key personnel
           > Specific personal data to include travel plans, meetings and the like               X
           > Specific training materials that include sensitive information                      X

           Programs
           > Detailed information identifying sensitive programs, special                        X
             projects, SAPs, WFO
           > Reports detailing specific activities and/or results from. programs                 X
             and projects
           > Information pertaining to specific programs at other facilities/sites               X
             that has not been cleared with the other sites for publication on a
             publicly accessible web site


           A04RLO18

           Larry Leslie-AIC
           Mike Kuklok-Team Leader




                                                          2
